No.
In The
Supreme Court of the United States
CERTIFICATE OF COMPLIANCE

Sergei Vinkov,
Petitioner
v.
Mark Smith et al.,
Respondents
As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains
8,284 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on 13th October, 2020.

Sergei Vinkov, Petitioner in
Pro Per

